Case: 19-3577

Document: 48

Page: 1

Date Filed: 12/17/2020

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-3577

UNITED STATES OF AMERICA
v.
ARTHUR GREAVES,
Appellant

On Appeal from the District Court
of the Virgin Islands
(District Court No. 3-19-cr-00001-001)
District Judge: Hon. Curtis V. Gomez

Submitted Pursuant to Third Circuit L.A.R. 34.1(a)
on December 10, 2020
Before: SMITH, Chief Judge, CHAGARES, and MATEY, Circuit Judges.
(Opinion filed: December 17, 2020)

OPINION



This disposition is not an opinion of the full Court and, pursuant to I.O.P. 5.7,
does not constitute binding precedent.

Case: 19-3577

Document: 48

Page: 2

Date Filed: 12/17/2020

MATEY, Circuit Judge.
Arthur Greaves led police to a loaded gun. That led to his conviction for possession
of the firearm. Greaves argues that the weapon, and his statements to the officers, should
have been suppressed. The District Court disagreed, concluding the Virgin Islands Police
Department (“VIPD”) did not violate his Fifth Amendment rights as expressed in Miranda
v. Arizona, 384 U.S. 436 (1966). Because we hold that Miranda does not apply, we will
affirm.
I. BACKGROUND
Around midday on a Thursday, the VIPD received a call about an armed robbery
near a school. When officers arrived, witnesses reported seeing the suspect flee into an
abandoned building. After a short search, the officers found Arthur Greaves hiding inside
the adjacent family center. Detective Richard Velazquez arrived to find Greaves in
handcuffs and promptly informed him of the rights outlined in Miranda. But working from
memory, Velazquez strayed from the VIPD’s official Miranda script. After Greaves
acknowledged he understood the rights explained, Velazquez asked him about the missing
gun. Velazquez warned that if someone found the firearm, Greaves could be responsible.
That prompted Greaves to lead the officers to the weapon.
As a result, Greaves was charged with possessing a firearm with an obliterated serial
number in violation of 18 U.S.C. §§ 922(k) and § 924(c)(1)(B)(i).1 He pleaded not guilty
and moved to suppress his statements that led the officers to the gun and the gun itself,

1

Another charge for possession of a firearm in a school zone was dismissed.
2

Case: 19-3577

Document: 48

Page: 3

Date Filed: 12/17/2020

arguing violations of Miranda. The District Court denied the motion, and Greaves then
pleaded guilty. This timely appeal followed.2
II. DISCUSSION
We review the denial of a motion to suppress for “clear error as to the underlying
factual findings,” but exercise plenary review over the “application of the law to those
facts.” United States v. Burnett, 773 F.3d 122, 130 (3d Cir. 2014). We may affirm “on any
ground supported by the record.” United States v. Agnew, 407 F.3d 193, 196 (3d Cir. 2005).
And here, the record shows an already dangerous situation with the potential for “further
danger to the public.” New York v. Quarles, 467 U.S. 649, 657 (1984). For that reason, we
conclude that the officers did not need to inform Greaves of his Miranda rights before
asking about the location of the gun, and we will affirm the denial of his suppression
motion.3
The principle of Miranda is familiar, stating that before law enforcement officers
may question an individual in custody, they must provide a reminder of the rights secured
by the Fifth Amendment. Miranda, 384 U.S. at 479. But that requirement is not without
exception. Sometimes “the need for answers to questions in a situation posing a threat to
the public safety outweighs the need for the prophylactic rule protecting the Fifth
Amendment’s privilege against self-incrimination,” and “spontaneity rather than

2

The District Court had jurisdiction under 18 U.S.C. § 3231 and 48 U.S.C. § 1612,
and we have jurisdiction to hear this appeal pursuant to 28 U.S.C. § 1291.
3
For that reason, we do not decide whether the Miranda warning given was
adequate and whether Greaves knowingly, intelligently, and voluntarily waived his rights.
3

Case: 19-3577

Document: 48

Page: 4

Date Filed: 12/17/2020

adherence to a police manual is necessarily the order of the day.” Quarles, 467 U.S. at 656–
57.
Quarles explained that “pressing public safety concerns,” Oregon v. Elstad, 470
U.S. 298, 317 (1985), allow “questions necessary to secure [the officers’] own safety or
the safety of the public,” Quarles, 467 U.S. at 659. This was one of those times and
Velazquez’s questions about the location of the gun were aimed directly at finding the
weapon before a member of the public. When the officers found Greaves, they knew a gun
was missing in a school zone, during the school week, with witnesses milling around near
a family center. All of that created “an objectively reasonable need to protect the police or
the public from any immediate danger associated with the weapon.” Id. at 659 n.8.
For that reason, the officers did not need to read Greaves his Miranda rights before
asking about the missing gun. The District Court therefore correctly denied Greaves’
motion to suppress and we will affirm.

4

